App 1
APPENDIX

Case: l:14-cv-04854 Document#: 155 Filed: 05/27/20 Page 1 of 2 PagelD #:627
Filed: 05/26/2020
Pages: 2
Case: 19-2893 Document: 00713618495

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
wrvw.ca7.uscourts.gov

Everett McKinley Diiksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

NOTICE OF ISSUANCE OF MANDATE
May 26,2020
To:

Thomas G. Bruton
UNITED STATES DISTRICT COURT
Northern District of Illinois
Chicago, IL 60604-0000

CEZARY WOJCIK,
Plaintiff - Appellant
No. 19-2893

v.
COOK COUNTY, ILLINOIS, et al.,
Defendants - Appellees

Originating Case Information:
District Court No: l:14-cv-04854
Northern District of Illinois, Eastern Division
District Judge John J. Tharp
Herewith is the mandate of this court in this appeal, along with the Bill of Costs, if any. A
certified copy of the opinion/order of the court and judgment, if any, and any direction as to
costs shall constitute the mandate.
RECORD ON APPEAL STATUS:

No record to be returned

NOTE TO COUNSEL:
If any physical and large documentary exhibits have been filed in the above-entitled cause, they are
to be withdrawn ten (10) days from the date of this notice. Exhibits not withdrawn! during this

Case: l:14-cv-04854 Document #: 155 Filed: 05/27/20 Page 2 of 2 PagelD #:628
Case: 19-2893
Document: 00713618495
Filed: 05/26/2020
Pages: 2

period will be disposed of.
Please acknowledge receipt of these documents on the enclosed copy of this notice.

Received above mandate and record, if any, from the Clerk, U.S. Court of Appeals for the
Seventh Circuit.

Date:

form name: c7_Mandate(form ID: 135)

Received by:

App 2

APPENDIX

Case: l:14-cv-04854 Document#: 157 Filed: 05/27/20 Page 1 of 1 PagelD #:632
Case: 19-2893
Document: 00713618494
Filed: 05/26/2020
Pages: 1

lilnttefr States (Eourt of Appeals

CERTIFIED COPY

For the Seventh Circuit
Chicago, Illinois 60604
May 15,2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
AMY C. BARRETT, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 19-2893
CEZARY WOJCIK,
Plaintiff-Appellant,

v.
COOK COUNTY, et al,
Defendants-Appellees.

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 14-CV-4854
John J. Tharp, Jr.,

Judge.
ORDER

On consideration of the petition for rehearing, the judges on the original panel
have voted to deny rehearing. It is, therefore, ORDERED that the petition for rehearing
is DENIED.

App 3

APPENDIX

Case: l:14-cv-04854 Document #: 156 Filed: 05/27/20 Page 1 of 3 PagelD #:629
Case: 19-12893

D%mmMbmta msvSMSft2612020 Pages: 3

To be cited only in accordance with Fed. R. App. P. 32.1

Unitefr States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604

CERTIFIED COPY

Submitted April 29,2020*
Decided April 29,2020
Before
ILANA DIAMOND ROVNER, Circuit Judge
AMY C. BARRETT, Circuit Judge
AMY J. ST. EVE, Circuit Judge
No. 19-2893
CEZARY WOJCIK,
Plaintiff-Appellant,

v.
COOK COUNTY, et al,
Defendants-Appellees.

Appeal from the United States District
Court for the Northern District of Illinois,
Eastern Division.
No. 14-CV-4854
John J. Tharp, Jr.,
Judge.

ORDER
Despite a state court's order that Cezary Wojdk serve his jail sentence at a health
center where he could receive treatment for his health conditions (which include
seizures, diabetes, Parkinson's disease, and Alzheimer's disease), officials at Cook
County Jail placed him in general population and failed to provide him his medications.
Wojcik sued Cook County, the county sheriff, and several prison officials for the mixup, contending that they ignored his serious medical needs in violation of the Eighth

’ We have agreed to decide the case without oral argument because the briefs and
record adequately present the facts and legal arguments, and oral argument would not
significantly aid the court. See Fed. R. App. P. 34(a)(2)(C).

Case: l:14-cv-04854 Document #: 156 Filed: 05/27/20 Page 2 of 3 PagelD #:630
Case: 19-2893
Document: 00713618492
Filed: 05/26/2020
Pages: 3

No. 19-2893

Page 2

Amendment. But the district court entered summary judgment for the defendants,
concluding that none knew about the court's order or deliberately ignored Wojcik's
medical needs. We affirm.
Wojcik was convicted in an Illinois state court in 2013 of driving under the
influence, 625ILCS 5/11-501, and sentenced to 10 days' imprisonment. Because of
Wojcik's health issues, die court ordered that he serve his sentence at Cermak Memorial
Hospital, a health center located within Cook County Jail. The court also attached two
letters to its sentencing order: One from Wojcik's doctor, listing die medications that
Wojcik needed, and one from Wojcik's lawyer, explaining the importance of Wojcik
receiving his medication. The court's sentencing order referred to Wojcik by both his
real name and the alias he was using at the time, "Anthony Avado."
Before Wojcik left the courthouse, Sheriff's Deputy Steve Kaloudis processed him
by taking his name and creating a jail identification number. Because Wojcik provided
his alias (Anthony Avado), only that name appeared on his jail intake forms. Wojcik
was carrying copies of the letters from his doctor and lawyer, as well as a copy of the
court's order placing him at Cermak, but Kaloudis took these documents and sealed
them in a plastic bag with the rest of Wojcik's property. Another deputy brought Wojcik
and his property to Cook County Jail.
When Wojcik arrived at the jail, he told an (unidentified) officer about his
sentencing order and health issues. He was nonetheless placed in general population.
(The record does not indicate who placed Wojcik there.) Wojcik told several members of
the medical staff that he needed medication, and the staff tried to diagnose him and
provide treatment. But because Wojcik had been admitted under his alias, they were
unable to verify his prescriptions with his pharmacist or find them in the Illinois
Controlled Substance Database.1 Wojcik remained in jail for four days without access to
his medications. (He was released early after receiving good-time credit.) Upon his
release, he was experiencing shortness of breath, an abnormal heartbeat, and difficulty
walking.
Wojcik brought this deliberate-indifference suit against Cook County, the Cook
County Sheriff, the deputies who processed him at the courthouse and transported him
1 Under its prescription monitoring program, the Illinois Department of Health
Services maintains a database of current prescriptions for controlled substances issued
in the state. See Illinois Prescription Monitoring Program,
https://www.dhs.state.il.us/page.aspx?item=97345 (last visited April 22,2020).

Case: l:14-cv-04854 Document #: 156 Filed: 05/27/20 Page 3 of 3 PagelD #:631
Case: 19-2893
Document: 00713618492
Filed: 05/26/2020
Pages: 3

No. 19-2893

Page 3

to jail, and the medical professionals at the jail. 42 U.S.C. § 1983. He argued that the
deputies failed to provide the sentencing order to jail officials, and that the medical staff
failed to provide him his needed medication.
The district court entered summary judgment for the defendants. The court
determined that, although Wojcik could show that he had serious medical needs that
jail officials did not treat, none of the named defendants was responsible for this
oversight. The court explained that no evidence supported Wojcik's allegation that the
deputies who processed him at the courthouse and transported him to the jail failed to
present the sentencing order to jail officials. Nor had Wojcik adduced evidence that any
of the medical defendants violated the Eighth Amendment by intentionally
disregarding his medical needs. Although the court acknowledged that several
defendants could, perhaps, have done more to ferret out Wojcik's need for
medications," it concluded that it was "plain that the fundamental cause of the
problem" in verifying Wojcik's medications was his use of an alias that differed from
the name in which his prescriptions had been ordered.
On appeal, Wojcik spotlights his claim against Kaloudis, the deputy who
processed him at the courthouse and who, Wojcik maintains, took his copy of the
sentencing order and placed it with the rest of his property. But Wojcik does not point to
any evidence showing that Kaloudis stopped the order from arriving at the jail or caused
jail officials to ignore it. Only someone personally responsible in a constitutional violation
can be held liable under § 1983. Wilson v. Warren Cty., Illinois, 830 F.3d 464, 469 (7th Cir.
2016). And it is undisputed that Kaloudis's involvement ended when Wojcik left the
courthouse. Another deputy picked up Wojcik and brought him to the jail. Even on
appeal, Wojcik does not dispute that the deputy who transported him also brought his
property to the jail, including the court's order.
Wojcik also asserts, for the first time, that Kaloudis disobeyed the state court's
directive that both his name and alias appear on the jail intake forms and that he be
allowed to carry the sentencing order on his person. But Wojcik provides no evidence
that the court issued these orders and, regardless, litigants may not present on appeal
evidence or arguments that they did not present to the district court. See Puffer v. Allstate
Ins. Co., 675 F.3d 709, 718 (7th Cir. 2012).
We have considered Wojcik's additional arguments, and none has merit.
AFFIRMED

t

App 4

APPENDIX

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

CEZARY WOJCIK,

Appellate Case No: 19-2893

Plaintiff,
Vs.
COUNTY OF COOK, PAUL
SKRTVAN, DAWN HOWELL,
REBECCA MASI, DRUCILLA
KILGORE individually, SHERIFF’S
DEPUTY KALOUDIS, SHERIFF’S
DUTY ALI, and COOK COUNTY
SHERIFF THOMAS DART, in his
Official capacity.
Defendants

Appeal From The United States District Court
For the Northern District of Illinois Eastern Division,
Case No. 14-CV-4854
The Honorable Judge John J. Tharp, Jr.

BRIEF AND REQUIRED SHORT APPENDIX OF
PLAINTIFF-APPELLANT, CEZARY WOJCIK - PRO SE

Plaintiff on Appeal
For appellants) filing this statement
Name: Cezary Wojcik
Address: 1634 N. Milwaukee Ave Chicago IL, 60647
Telephone: 773-414-0471
Email: anna.anna909@yahoo.com
1

U.S.C.A. — 7th Circuit
RECEIVED

NOV 2 7 2019 MAN
GINO J. AGNELLO
CLERK

BACKGROUND

1. On June 27tt 2013, Cook County Judge by agreement between Plaintiff Attorney Kent R
Brody and county prosecutor severed time 10 days in CCJ Cermak Memorial Hospital to
connected case #11 CR 15230 (EX # 6 Northern District case 14 CV 4854).
2. Cook County Judge S. Sullivan acknowledged that the plaintiff used legal name Anthony
Avado A/K/A Cezary Wojcik, both names were granted by Judge Sullivan and were used
in the case. The judge also admitted in the case that Cezary Wojcik was disabled and had
a serious medical issue. Indeed, plaintiff’s attorney admitted that Anthony Avado A/K/A
Cezary Wojcik is to be assigned to the Cermak Memorial Hospital for his period of
incarceration. (EX # 7, 20, 21 Northern District case 14 CV 4854).
3. During the sentence in court, the plaintiff did not say any words or could not express
anything to anyone at all. Documents were recognized and approved by the judge.
4. In the courtroom procedure from the beginning was present officer’s star #10835
believed to be a Deputy Steve Kaloudis-ARRESTING OFFICER PRINT- was not (EX #
1 Northern District case 14 CV 4854), who was there to make sure all of Judge Sullivan’s
orders will be implemented accordingly, but that was never in his mind Judge's orders
are absolute, and everyone, including the Sheriff Deputy and county employees, is to
comply.
5. Plaintiff’s Attorney Kent R. Brody asked the judge for a copy of the order to hand over to
Anthony Avado A/K/A Cezary Wojcik for the record to show in CCJ arrival and future
processing that everyone must obey judge's orders. After assigning the order, the Judge

2

gave a copy to the attorney and plaintiff received die copy from the attorney. Deputy
Steve Kaloudis also retrieved a full copy of the Judge's orders.
6. After the plaintiff received a copy of all orders, Deputy S. Kaloudis escorted plaintiff to
the holding cell where he started the intake process.
7. Deputy S. Kaloudis took all of the copies of the Judge's orders, including the plaintiffs
copy, placed them in a plastic bag, and sealed the bag (picture 1,2 Northern District case
14 CV 4854) which was a disobedience of the Judge's orders. It was Deputy S.
Kaloudis s premeditated action to deliberately remove the copies of the order from the
plaintiffs possession. This was a core facet of the matter, along with fundamentally
significant irregularities, that triggered an avalanche and the inventible consequences to
the plaintiff.
8. The plaintiff was trying to convince Deputy S. Kaloudis to obey and adopt Judge
Sullivan’s orders to leave all signed documents with the plaintiff for further processing in
CCJ. However, Deputy S. Kaloudis insisted that he would not do so. Deputy S. Kaloudis
stated, “The court belongs to Judge and his rules, but the holding cell is my house and my
rules. In addition, the Deputy was sinister to the plaintiff and belligerent by stating,
Shut the fuck up! The plaintiff was intimidated but was subsequently urging the
deputy to provide both names Anthony Avado and Cezary Wojcik, as the Judge ordered,
during processing, but Deputy S. Kaloudis disregarded and denied using both names.
Instead, Deputy S. Kaloudis used only one name, Anthony Avado (EX 1 Northern
District case 14 CV 4854). Proof shows that all sheriffs documents erased the name
Cezary Wojcik and was not used.

3

f 9- The plaintiff was horrified and appalled at what inevitably

would happen. Indeed, after

the plaintiff was moved to a different holding cell his name Cezary Wojcflc diminished
only to Anthony Avado. Consequently, other deputies and Cook County employees were
disquietingly not upholding the judge's orders of using both names to help obtain all of
the plaintiffs medical records.
10. Due to the arrogant attitude of deputies and Cook County employees, the plaintiff was
undeniably entered as Anthony Avado only (Pic 1,2 Northern District case 14 CV 4854).
On arrival in CCJ, the plaintiff was assigned to general population division 2 (EX 2,3
Northern District case 14 CV 4854). The plaintiff, on several occasions, tried to engage
the deputies and employees to adopt the judge’s orders to use the second name (Cezary
Wojcik) with no success due to their abuse of power and disregard to law.
11. On June 28th 2013, the plaintiffs attorney anticipated what could happen and checked if
inmate housing was upheld accordingly to the judge's orders. The plaintiff’s attorney
went to CCJ complex and discovered what happened, the plaintiff was housed only under
the name Anthony Avado in the general population division 2 (08-4H-4-D6), and not in
Cennak Hospital, without medical needs being met (ATT. 1). The plaintiff’s attorney was
trying to correct the negligence and disobedience with no success. Due to these actions,
attorney Kent Brody agreed to participate in the anticipated trial as a witness.
12. All these explicit facts express exceptionally obstruction ofjustice, and Deputy S.
Kaloudis should be held in contempt.
13. In the original sentence provided by Judge Sullivan, the plaintiff was given 18 months
probation, but on May 15th 2014 (ATT. 2) when Judge Sullivan received the report for

4

how the sentence was carried out, the judge dismissed the remaining probation time so
that the plaintiff can handle the remaining medical needs out of the country.

5

CONCLUSION

in Judge John J. Tharp Jr’s opinion, on page 15, “What the record in this case

establishes is that Judge Sullivan’s order that Wojcik serves his time in the Cennak
Hospital and that he be administered his prescription drugs was not carried out. That Is
unfortunate. The failure does not, however, mean that any defendant named in the suit
violated Wojcik’s constitutional rights by recklessly disregarding Wojcik’s serious
medical condition. Others- the CCJ intake officer, for example- may have been aware of
Judge Sullivan’s order and the need to ensure that his prescription medication was
administered, but the plaintiff has not identified them. And several of the defendants
could, perhaps, have done more to ferret out Wojcik’s need for medication, but no
reasonable jury could, on this record, conclude that any of the named defendants were
recklessly indifferent to Wojcik’s medical needs expressed in his mittimus or otherwise.”
Judge Tharp contradicted himself in his opinion on page 2 writing, “Defendant Sheriff’s
Deputy Steve Kaloudis processed Wojcik at the courthouse and placed Judge
Sullivan’s order with the doctor’s letter in a plastic bag along with Wojcik’s other
property. Wojcik was not allowed to personally cany the plastic bag with him to CCJ, but
the plastic bag was processed by CCJ and held there until Wojcik was released on June
30.”

The plaintiff still has the original copies of Judge Sullivan’s orders sealed in the

processing bag provided by Deputy Kaloudis in his possession.
Unfortunately, too many people like myself me victims of a broken and
corrupted system. Judge John J. Tharp Jr’s only assumption and perception were that the
6

plaintiff would not win the case with a jury. Instead, all presented documents are
undeniable proof that by Sheriffs Deputy Steve Kaloudis disobeying Judge Sullivan’s
order created a chain reaction and collapsing of legal rights. The only way to correct this
negligence and not adjusting to constitutional rights is litigation During this litigation
process, on May 26 2017, the plaintiff reported to the judge his intention to video the
deposition against the defendant deputy and employees. The defendant’s attorney then
denied the deposition through deceptive action. On July 6th 2017, the judge stated that the
plaintiff can motion to compel the defendant's deposition. On August 17th 2017, the
judge denied the plaintiffs motion to compel. As a pro se, the entire time, the plaintiff
was supervised by pro se program attorney, and they saw the bias in this case by rejecting
and denying the plaintiff s many motions. Nevertheless, the attorneys guided the plaintiff
through a difficult process and observed a lack of fairness and justice. Indeed, the
plaintiff does not have the power to access the court system to review documents; the
only way to review the documents within the court system is to utilize the attorneys from
the pro se program. A big contrast is that, the defendant did not present any documents
with a different sentence order from Judge Sullivan that would have allowed for their
actions. The plaintiff had sufficient corroborating evidence; however, he never received
an opportunity to present this case in front of a jury because of Judge Tharp's decision, to
close the case before trial. The plaintiff was put in a losing position since the defendant’s
attorney was tampering with evidence, was altering documents, had inconsistencies in
their evidence, and credentials were not valid because of enormous incompatibilities.
Overwhelming and devastating fact, in this case, is the fact that the defendants do
not have any supporting documents from the Cook County case. The platform the

7

defendants used his own deposition of its deputy and employees and arguing to the
plaintiffs documents of the fact. The plaintiff was never notified by anyone, attorney or
court, of the defendant's own deposition when and where took the place. However, the
plaintiff requested that the defendant’s deposition was denied.
Such huge institutional machines do not recognize rules and law by breaking them
daily and hiding behind the backs of big law firms. Penalties imposed by Judge Sullivan
must be followed by everyone. The plaintiff is a pro se entity and is humbly pleading
without prejudice that this is taken into account when reviewing to allow for this case to
go to trial by the doctrine of law.

8

App 5

APPENDIX

Cases
Estelle v. Gamble. 429 U.S. 97 (T976)
Ruling: Deliberate indifference to serious medical needs of prisoners can cause
cruel and unnecessary pain, which is prohibited by the Eighth Amendment to the
Constitution.
Michael Parish, at v. Sheri ff of Cook County and Cook County. Illinois case 07CV-4369
Michael Parish and eleven other plaintiffs have sued the Sheriff of Cook County
and Cook County for damages under 42 U.S.C. § 1983. Plaintiffs allege that the
defendants maintained a policy or practice of deliberate indifference to their
serious medical needs and thus violated their Fourteenth Amendment rights while
they were confined at the Cook County Jail (CCJ). Plaintiffs have moved to certify
a class action pursuant to Federal Rule of Civil Procedure 23(b)(3). For the reasons
stated below, the Court grants plaintiffs' motion

Statutes
42 U.S. Code § 12102
Definition of disability
(1) Disability term “disability” means, with respect to an individual—
(A) a physical or mental impairment that substantially limits one or more major life
activities of such individual;”
42 U.S.C. § 12101
The Americans with Disabilities Act of 1990 or ADA (42 U.S.C. § 12101) is
a civil rights law that prohibits discrimination based on disability. It affords similar

protections against discrimination to Americans with disabilities as the Civil
Rights Act of 1964, [1] which made discrimination based on race, religion, sex,
national origin, and other characteristics illegal. In addition, unlike the Civil Rights
Act, the ADA also requires covered employers to provide reasonable
accommodations to employees with disabilities, and imposes accessibility
requirements on public accommodations
42 U.S.C. §§ 12131-12165
Title II—public entities (and public transportation)
Title II prohibits disability discrimination by all public entities at the local level,
e.g., school district, municipal, city, or county, and at state level. Public entities
must comply with Title II regulations by the U.S. Department of Justice. These
regulations cover access to all programs and services offered by the entity. Access
includes physical access described in the ADA Standards for Accessible Design
and programmatic access that might be obstructed by discriminatory policies or
procedures of the entity.
Title II applies to public transportation provided by public entities through
regulations by the U.S. Department of Transportation. It includes the National
Railroad Passenger Corporation (Amtrak), along with all other commuter
authorities. This section requires the provision of paratransit services by public

entities that provide fixed-route services. ADA also sets minimum requirements for
space layout in order to facilitate wheelchair securement on public transport. [20]
Title II also applies to all state and local public housing, housing assistance, and
housing referrals. The Office of Fair Housing and Equal Opportunity is charged
with enforcing this provision.
ADA Title II: State and Local Government Activities
Title II requires state and local governments, regardless of the entity's size or
receipt of federal funding, to provide an equal opportunity to the disabled to
benefit from all of their programs, services, and activities (e.g. public education,
recreation, health care, social services).
State and local governments must follow architectural standards in the new
construction, must relocate programs or provide access in inaccessible older
buildings, and must communicate effectively with people with various disabilities.
They are required to make reasonable necessary modifications, unless they can
demonstrate that doing so would fundamentally alter the nature of the service,
program, or activity, or would result in undue financial and administrative burden.
(18 U.S.C. 2340A)
Section 2340A of Title 18, United States Code, prohibits torture committed
by public officials under color of law against persons within the public official's
custody or control. Torture is defined to include acts specifically intended to inflict

severe physical or mental pain or suffering. (It does not include such pain or
suffering incidental to lawful sanctions.) The statute applies only to acts of torture
committed outside the United States. There is Federal extraterritorial jurisdiction
over such acts whenever the perpetrator is a national of the United States or the
alleged offender is found within the United States, irrespective of the nationality of
the victim or the alleged offender.
Prisoner's Rights
1.

Everyone is entitled to their civil rights, including prisoners. Unfortunately,

many forms of civil rights abuses do occur in prisons. Common prisoner rights
violations include:
2.

Holding prisoners in outdated prisons that are unsanitary or unsafe

3.

The sexual harassment or assault of prisoners by prison guards

4.

Preventing a prisoner from complaining about prison conditions to outside

parties, such as the courts
5.

Punishing a prisoner for complaining about the prison to outside parties

6.

Subjecting a prisoner to torture or other forms of cruel and unusual

punishment
7.

Denying a prisoner medical attention, or providing inadequate medical

attention or facilities
Disabled Prisoners' Rights

Disabled prisoners’ rights are protected under §504 of the Rehabilitation Act
of 1973 and Title II of the Americans with Disabilities Act. The Rehabilitation Act
is applicable to facilities managed by federal agencies and to state or local agencies
that are funded by the federal government. The ADA supervises the facilities
managed by state and local agencies, whether or not they receive monies from the
federal government.
Rights of Inmates
Even the most chronic or hardened inmates have basic rights that are
protected by the U.S. Constitution. If you are facing incarceration, or if you have a
family member or friend who is in prison or jail, you should know about inmates'
rights.
The rights of inmates include the following:
The right to humane facilities and conditions
The right to be free from sexual crimes
The right to be free from racial segregation
The right to express condition complaints
The right to assert their rights under the Americans with Disabilities Act
The right to medical care and attention as needed
The right to appropriate mental health care
The right to a hearing if they are to be moved to a mental health facility

U.S Dept. Of Justice Article
NCJ Number:

209174 Title: Managing Offenders with Special Health Needs:

Highest and Best Use Strategies
Journal: Corrections Today Volume: 67 Issue: 1 Dated: February 2005 Pages: 5861
Authors): Elizabeth Anderson; Theresa Hilliard
Editor(s): Susan L. Clayton M.S.
Date Published:

February 2005

Annotation: This article discusses the various types of special needs offenders
incarcerated in correctional facilities, and the management of their special health
needs through the use of special medical housing.
Abstract: One of the many challenges for the field of corrections is the
development of effective strategies to address the unique requirements of offenders
with special health needs, ranging from appropriate housing to effective release
planning. In order to use both the physical plant and human resources optimally, it
is important to develop cost-effective, less restrictive strategies that mainstream
offenders with special health needs. It is necessary to identify the many categories
of patients with special health needs. These categories include: elderly offenders,

the terminally ill, those with communicable and/or chronic diseases, physically
handicapped, mentally/developmentally disabled, and blind/deaf offenders. Special
medical housing is seen as an effective approach in managing offenders with
special health needs. However, this special medical housing has the potential to be
progressively expensive and costly as the offenders they serve have increasing
levels of medical and physical disability. This article describes four levels of
identified special medical housing: environmental support, assisted living,
extended care, and infirmary care. This population of special needs offenders
(aging, chronically ill, and disabled) will continue to challenge departments of
corrections across the country. To manage these offenders effectively and cost
efficiently, multiple strategies are needed.
Main Term(s): Inmate health care
Index Term(s): Corrections management; Elderly offenders; Emotional disorders;
Inmates; Medical and dental services; Medical costs; Mentally ill inmates;
Mentally ill offenders; Older inmates; Persons with cognitive disabilities; Prison
special units; Socially challenged; Special needs offenders; Terminally ill inmates

Constitutional Provision Involved

United States Constitution, Amendment VII:
The Seventh Amendment continues a practice from English common law of
distinguishing civil claims which must be tried before a jury (absent waiver by the
parties) from claims and issues that may be heard by a judge alone. It only governs
federal civil courts and has no application to civil courts set up by the states when
those courts are hearing only disputes of law. In suits at common law, where the
value in controversy shall exceed twenty dollars, the right of trial by jury shall be
preserved, and no fact tried by a jury, shall be otherwise reexamined in any court
of the United States, than according to the rules of the common law.

United States Constitution, Amendment VIII
Excessive bail shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted. Eighth Amendment, made applicable to the
states by the Fourteenth.

United States Constitution, Amendment XIV
Section 1.
All persons bom or naturalized in the United States, and subject to the
jurisdiction thereof, are citizens of the United States and of the state wherein they
reside. No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person

of life, liberty, or property, without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws.

Case: l:14-cv-04854 Document#: 147 Filed: 08/30/19 Page 1 of 16 PagelD #:554

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ILLINOIS
EASTERN DIVISION

CEZARY WOJCIK,
Plaintiff,
v.
COUNTY OF COOK, PAUL
SKRIVAN, DAWN HOWELL,
REBECCA MASI, DRUCILLA
KILGORE individually, SHERIFF’S
DEPUTY KALOUDIS, SHERIFF’S
DEPUTY ALI, and COOK COUNTY
SHERIFF THOMAS DART, in his
official capacity,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

No. 14-CV-4854
Judge John J. Tharp, Jr.

MEMORANDUM OPINION AND ORDER
Plaintiff Cezary Wojcik, also known as Anthony Avado, alleges that the defendants were
deliberately indifferent to his serious medical needs during his four-day incarceration at the Cook
County Jail (“CCJ”) in June 2013. A Cook County judge had ordered that Wojcik serve his term
of incarceration at Cermak Memorial Hospital (“Cermak”) and receive certain prescription
medications while incarcerated. It is undisputed that the judge’s order was not implemented, but
the evidence of record does not establish that any defendant named in this suit was responsible for
that failure, much less that any defendant violated the Constitution by failing to see that the order
was carried out. Accordingly, the defendants’ motion for summary judgment is granted.

Case: l:14-cv-04854 Document#: 147 Filed: 08/30/19 Page 2 of 16 PagelD #:555

BACKGROUND1
On June 27, 2013, Cook County Circuit Judge Sharon Sullivan sentenced Wojcik to serve
four2 days of incarceration at the Cermak Memorial Hospital (“Cermak”) on a DUI conviction.
Judge Sullivan attached to the sentencing order (also, “mittimus”) a letter from a medical doctor
listing the medications that Wojcik was then taking and ordered “that during his incarceration,
Anthony Avado a/k/a Cezary Wojcik is to be administered the medications listed on the attached
letter as per the orders of Jerry A. Jakimiec, M.D.” Defs.’ Statement of Facts (“DSOF”) Ex. B
Wojcik Dep. Ex. 2, Order & Letter from Jerry A. Jakimiec, M.D., ECF No. 129-3 (capitalization
omitted). These medications consisted of: Alprazolam (Xanax), Clonazepam, Depakote ER,
Prozac, Mysoline, and Norvace. Defendant Sheriffs Deputy Steve Kaloudis processed Wojcik at
the courthouse and placed Judge Sullivan’s order with the doctor’s letter in a plastic bag along
with Wojcik’s other property. Wojcik was not allowed to personally carry the plastic bag with him
to CCJ, but the plastic bag was processed by CCJ and held there until Wojcik was released on June
30.

Defendant Sheriffs Deputy Ali is one of the transport officers who drove Wojcik from the
courthouse to CCJ. Wojcik contends that he was handcuffed with no safety belt and broke his back
during the bus ride to CCJ. To support the contention that he broke his back, Wojcik cites to non­
pertinent paragraphs of the amended complaint; a doctor’s note that says Wojcik reported that he
was having constant low back pain after he fell when a bus suddenly stopped, but that mentions
no broken bone; and X-rays, at least one of which appears to be from 2018 (nearly five years after
\
1

Because this is the defendants’ motion for summary judgment, the Court construes all
facts and draws all reasonable inferences in the light most favorable to Wojcik. See Alexander v.
Casino Queen, Inc., 739 F.3d 972, 977 (7th Cir. 2014).
2 Wojcik was originally sentenced to ten days, but his sentence was reduced to four days
after accounting for good time credit and credit for time served.
2

Case: l:14-cv-04854 Document#: 147 Filed: 08/30/19 Page 3 of 16 PagelD#:556

the incident), unsupported by any medical interpretation of those X-rays. Wojcik does not allege
or provide evidence that Ali or any other defendant knew he had fallen in the bus and injured his
back.
Wojcik was using the alias “Anthony Avado” during his June 2013 incarceration at CCJ.
But Wojcik claims that “[ajrriving at intake CCJ [he] stated [his] name as Cezary Wojcik and
complained to the officer about [his] court order and health issues and concerns.” Pl.’s Statement
of Additional Facts (“PSOF”)314, ECF No. 138. Wojcik does not, however, allege to whom he
voiced his health issues and concerns, to whom he mentioned his court order, or to whom he stated
his name as Cezary Wojcik. On June 27, the date of his arrival, and the next day, June 28, Wojcik
was seen by the four individual CCJ defendants: Nurse Drucilla Kilgore, Rebecca Masi,4 Physician
Assistant Paul Skrivan, and Nurse Dawn Howell.
Nurse Kilgore performed Wojcik/Avado’s5 initial intake screening. Wojcik/Avado
reported to Kilgore that he had a history of seizures, hypertension, and heart problems including
irregular heartbeat. Kilgore noted that Wojcik/Avado “appeared normal” and that his vital signs

3 Wojcik did not support his Statement of Additional Facts with an affidavit. But because
Wojcik declared under penalty of perjury that the factual assertions in his statement of facts and
in his opposition statement (both at ECF No. 138) are true, and because a “document filed pro se
is to be liberally construed,” Erickson v. Pardus, 551 U.S. 89, 94 (2007) (internal quotation marks
and citation omitted), the Court treats those factual assertions as if they were set forth in an affidavit
from Wojcik. See Sealed Plaintiffv. Sealed Defendant# 7,537 F ,3d 185,191 (2dCir. 2008) (“[The
obligation to construe pleadings of pro se litigants liberally] entails, at the very least, a permissive
application of the rules governing the form of pleadings.”).
4 The defendants assert that Rebecca Masi is a mental health specialist, but Wojcik contests
that assertion as not reflected in the record. Pl.’s Resp. to DSOF 120, ECF No. 138. Resolution of
this dispute is not material to the Court’s ruling.
5 The defendants recorded Wojcik’s name as Avado throughout his medical screening.
Where a defendant identified the plaintiff by name, this opinion will use “Wojcik/Avado” to
indicate that the defendant understood the plaintiffs name to be Avado at the time of their
encounter with him.
3

Case: l:14-cv-04854 Document #: 147 Filed: 08/30/19 Page 4 of 16 PagelD #:557

were stable. Defs.’ Statement of Facts (“DSOF”)

17, ECF No. 129.6 Kilgore also noted that

Wojcik/Avado took medication for Parkinson’s disease and Alzheimer’s disease, and
Wojcik/Avado recalls telling someone when he was being processed that he had Parkinson’s and
Alzheimer’s. PL’s Resp. to DSOF ^ 19, ECF No. 138. Kilgore’s intake summary reflects that, at
the outset of the assessment, Wojcik denied that he had ever been treated for mental health issues
or prescribed medications for mental health problems. Several pages later, however, the intake
report reflects that Wojcik/Avado’s “current medication list” included “Psych Meds, Other: MEDS
FOR PARKINSON, ALHEIMER.” [sic], DSOF Ex. D, SAO WOJCIK 00009, ECF No. 129-5.
Wojcik/Avado does not allege, and the intake form does not reflect, that he told Kilgore about
Judge Sullivan’s order or the prescription list from his doctor. Because Wojcik/Avado indicated
that he had previously been prescribed medications to address psychiatric problems, Kilgore
referred Wojcik/Avado for a mental health assessment.
Defendant Masi performed the mental health assessment of Wojcik/Avado after Kilgore’s
initial screening. Wojcik/Avado claims that he “[ajdmitted to taking medications including Xanax
2 mg and Clonazepam 2 mg which was explained to Rebecca Masi that the documents were in a
placed in sealed plastic bag with [his] clothes on June 27, 2013.” PSOF ^ 6 (grammatical errors
preserved). Wojcik/Avado also “complained to Masi[] about experiencing a panic attack,
confusion, palpitations, pounding of the heart, chest pain, discomfort, and anxiety.” Id. f 8. Masi
noted that Wojcik/Avado said he had been prescribed Xanax and Clonazepam to be taken twice
daily. Masi consulted a psychiatrist who checked the Illinois Controlled Substance Database to
verify that Wojcik/Avado had the prescriptions he reported. The medications did not appear in the

6 Wojcik denies this fact but his denial fails to meet the substance of the statement; the
cited exhibits do not contradict it.
4

Case: l:14-cv-04854 Document #: 147 Filed: 08/30/19 Page 5 of 16 PagelD #:558

database under “Anthony Avado,” however, because they were listed under “Cezary Wojcik.”
(Wojcik does not allege or provide evidence that he told Masi that his name was Cezary Wojcik.)
Before referring Wojcik/Avado back to the general population, Masi advised him that if his
symptoms worsened before his follow-up appointment, he should fill out a Health Services
Request Form.
Physician Assistant Skrivan performed another assessment of Wojcik/Avado shortly after
Masi’s. Wojcik/Avado told Skrivan that he took multiple medications but was unable to provide
the names of those medications. Skrivan’s assessment report describes Wojcik/Avado as a “poor
historian” of his medical history, DSOF Ex. D, SAO WOJCIK 00014,7 and that he attempted but
was unable to verify Wojcik/Avado’s prescriptions with Jewel’s pharmacy; Skrivan also looked
under the name “Avado” rather than “Wojcik.” Skrivan noted that Wojcik/Avado did not appear
to be in any distress but that his blood pressure was slightly elevated. Skrivan prescribed
Wojcik/Avado with two blood pressure medications, Amlodipine and Propranolol, referred him
for follow-up counseling regarding his medications, and marked the referral as urgent. Skrivan
completed Wojcik/Avado’s intake on June 27 and referred him to the medical infirmary for his
housing assignment.
The next day, on June 28, Wojcik/Avado submitted the Health Services Request Form that
Masi advised him to submit if his symptoms worsened. On that form, Wojcik/Avado hand wrote
his name as “Anthony Avado”; the name “Cezary Wojcik” does not appear. Wojcik/Avado listed
several medications he had taken the day before: Alprazolam, Clonazepam, Norvasc, Vicodin, and
two other medications that are illegible. Nurse Howell responded to Wojcik/Avado’s submission

7 For example: Wojcik, who had just been convicted and sentenced for driving under the
influence, denied any history of alcohol use.
5

Case: l:14-cv-04854 Document #: 147 Filed: 08/30/19 Page 6 of 16 PagelD #:559

of the Health Services Request Form. Initially, Howell was unable to verify Wojcik/Avado’s
medication because it was listed under the name “Wojcik,” but the medication was ultimately
verified and needed to be delivered from the pharmacy. Wojcik/Avado also complained to Howell
about back pain. Wojcik/Avado’s medical records show that he was given Tylenol, but Wojcik, in
his response to the defendants’ statement of facts, denies being given Tylenol.
Also on June 28, Wojcik’s attorney visited CCJ with Judge Sullivan’s order and
complained that Wojcik had been placed in the general population at CCJ rather than at Cermak.
Wojcik does not allege to whom his attorney complained, or who his attorney made aware of Judge
Sullivan’s order. Wojcik contends that as a result of not receiving his prescribed medications, he
experienced withdrawal symptoms, including heart and neurological problems that caused him to
fall on a staircase at CCJ, resulting in injury to his back (which, he says, had already been broken
during transport from the courthouse the day before) and knees and a “broken” hernia. PSOF ^ 16,
25. Wojcik says that he was required to use the stairs even though there was an elevator nearby.
Wojcik does not allege that any defendant was aware of this fall.
Wojcik did not seek medical attention at CCJ on June 29 or 30. When Avado was released
from CCJ on June 30, however, he was experiencing shortness of breath, a racing heartbeat, and
difficulty walking. After he was released, he took a taxi to Rush Hospital. Wojcik reported chest
pain and shortness of breath at Rush, and his EKG performed there was abnormal, but Wojcik told
his treating physician approximately two hours after arriving at Rush that he felt better.
Wojcik was again incarcerated at the CCJ several years later, in 2016, this time for 120
days. Pl.’s Opp’n to Def.’s Mot. for Summ. J. f 1, ECF No. 138.8 The judge in that case also

8

The defendants assert that this document, which is not authorized to be filed by the local
rules, should be stricken for that reason and for its lack of relevance. The Court agrees that the
content of the document, which pertains almost entirely to events relating to Wojcik’s subsequent
6

Case: l:14-cv-04854 Document#: 147 Filed: 08/30/19 Page 7 of 16 PagelD #:560

ordered that Wojcik be sent to Cermak. Id. In connection with his 2016 incarceration, Wojcik and
his sentencing order were sent to Cermak, Wojcik was transported in a van for inmates with special
needs, and Wojcik was given his prescription medication. Id. fflj 1, 3, 5.
Wojcik, initially with retained counsel, brought suit alleging that the defendants were
deliberately indifferent to his need for his prescription medications while he was incarcerated at
CCJ from June 27 to 30, 2013. Wojcik’s retained counsel filed both the initial complaint and the
amended complaint but later filed a motion to withdraw citing irreconcilable differences, a
breakdown in communications, and concerns about the viability of Wojcik’s claims. This Court
granted Wojcik’s retained counsel’s motion to withdraw contingent on their contacting Wojcik to
inform him that he must find new counsel or enter a pro se appearance within 21 days. About two
months later, Wojcik’s retained counsel filed a status report reporting that Wojcik had not
responded to attempts to contact him by certified mail, email, or phone. Wojcik then failed to
appear at a status hearing the following month, and his counsel reported that they still had not
received any response from Wojcik despite making every possible attempt to contact him.
Magistrate Judge Kim then recommended that this Court dismiss the matter for failure to prosecute
based on Wojcik’s lack of cooperation with his attorneys and his failure to contact the court and
comply with its orders.
Wojcik’s retained counsel subsequently filed a letter with the Court explaining that Wojcik
had just been released from prison, but that he had not informed his counsel the he would be going
to jail in the near future. Wojcik appeared during the next status hearing and claimed that his
counsel knew where he was going and how long he would be there. Wojcik was granted two

incarceration at the CCJ in 2016, has no relevance to the claims in this case. It is not necessary to
strike the document from the record.
7

Case: l:14-cv-04854 Document#: 147 Filed: 08/30/19 Page 8 of 16 PagelD #:561

months to retain new counsel but was unable to retain replacement counsel. Wojcik subsequently
filed a motion for attorney representation, which this Court granted. Appointed counsel moved to
withdraw roughly two months after being appointed, reporting that they had diligently reviewed
the record and had multiple conversations with Wojcik but could not go forward advancing
Wojcik’s claims consistent with their ethical obligations to the Court. This Court granted appointed
counsel’s motion to withdraw. Wojcik was granted another month to retain new counsel but filed
another motion for attorney representation after he was unable to retain new counsel. In light of
the inability of both retained and appointed counsel to continue asserting Wojcik’s claims
consistent with their ethical obligations, Wojcik’s apparent lack of communication with his
original counsel, and Wojcik’s failure to explain why he was unable to proceed with this case on
his own, this Court denied Wojcik’s second motion for appointed counsel.
Wojcik alleges that Cook County Sheriffs deputies Kaloudis and Ali were deliberately
indifferent to his serious medical needs by failing to ensure that his mittimus was properly
delivered, and that CCJ defendants Kilgore, Masi, Skrivan, and Howell were deliberately
indifferent to his serious medical needs by willfully disregarding his visible signs of distress and
his medical needs as expressed in his mittimus. This Court previously granted in part the
defendants’ motion to dismiss Wojcik’s amended complaint, dismissing Monell claims asserted
against the County. See Mem. Op. and Order, ECF No. 37. The counts remaining in this case are
Counts I—II, alleging that the individual Sheriffs deputy and CCJ defendants were deliberately
indifferent to Wojcik’s medical needs; Counts V-VI, alleging respondeat superior liability of
Sheriff Dart and Cook County for wrongful conduct of the individual defendants committed within
the scope of their employment; and Counts VII—VIII, alleging indemnification against Sheriff Dart
and Cook County.

8

Case: l:14-cv-04854 Document #: 147 Filed: 08/30/19 Page 9 of 16 PagelD #:562

DISCUSSION
The defendants move for summary judgment, arguing that the effects of Wojcik not
receiving his prescription medication did not rise to the level of a serious medical condition, that
no defendant was deliberately indifferent to his serious medical needs, and that the Sheriffs deputy
defendants are protected by qualified immunity. “Summary judgment is appropriate where there
is no genuine issue as to any material fact and the moving party is entitled to judgment as a matter
of law.” Alexander v. Casino Queen, Inc., 739 F.3d 972, 977 (7th Cir. 2014). To show that a
material fact is disputed, the party “must support the assertion by . . . citing to particular parts of
materials in the record.” Fed. R. Civ. P. 56(c)(1). Further, to show that there is a genuine fact issue,
the party opposing summary judgment “must do more than simply show that there is some
metaphysical doubt as to the material facts.” Matsushita Elec. Indus. Co. v. Zenith Radio Corp.,
475 U.S. 574, 586 (1986). “The mere existence of a scintilla of evidence in support of the plaintiffs
position will be insufficient; there must be evidence on which the jury could reasonably find for
the plaintiff.” Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 250 (1986). Many of the fact disputes
that Wojcik posits fail to satisfy these standards, others are irrelevant to his claim against the named
defendants, and none (individually or collectively) would permit a reasonable jury to find in his
favor.
The Eighth Amendment, as incorporated through the Fourteenth Amendment, imposes “a
duty on states to provide adequate medical care to incarcerated individuals. Officials violate this
duty if they display deliberate indifference to serious medical needs of prisoners.” McGee v.
Adams, 721 F.3d 474, 480 (7th Cir. 2013) (citations and internal quotation marks omitted). For
Wojcik’s claims to survive summary judgment, then, he must point to specific facts in the record
that would allow a reasonable jury to conclude that both elements of a deliberate indifference claim
have been satisfied. That is, Wojcik “must present evidence supporting the conclusion that he had
9

Case: l:14-cv-04854 Document#: 147 Filed: 08/30/19 Page 10 of 16 PagelD #:563

an objectively serious medical need. A medical need is considered sufficiently serious if the
inmate’s condition has been diagnosed by a physician as mandating treatment or is so obvious that
even a lay person would perceive the need for a doctor’s attention.” Id. Wojcik must also present
evidence supporting a conclusion “that the defendants were aware of his serious medical need and
were deliberately indifferent to it. Deliberate indifference is more than negligence and approaches
intentional wrongdoing.” Id. The state of mind required to establish deliberate indifference is
“essentially a criminal recklessness standard, that is, ignoring a known risk. Even gross negligence
is insufficient to impose constitutional liability” on the defendants. Id. at 481. To be liable for
deliberate indifference, a defendant “must both be aware of the facts from which the inference
could be drawn that a substantial risk of serious harm exists, and he must also draw that inference.”
Farmer v. Brennan, 511 U.S. 825, 837 (1994).
Here, although the evidence supports the existence of a serious medical need,9 there is no
evidence giving rise to a reasonable inference that any defendant knew about a significant risk to
Wojcik’s heath and deliberately or recklessly disregarded that risk. Wojcik alleges that deputies
Kaloudis and Ali failed to present Wojcik’s mittimus to officials at Cermak or to the individual
CCJ defendants even though they knew about the mittimus and Wojcik’s serious medical
condition. See Am. Compl.

17, ECF No. 16 (“Defendant Kaloudis and/or Defendant Ali acted

willfully and/or wantonly in failing to present plaintiffs mittimus to officials at Cermak Memorial
Hospital notwithstanding their knowledge of the Court order and the plaintiffs serious medical
condition as reflected in the court’s mittimus.”) (capitalization omitted); see also id. at | 30

9 Wojcik had been prescribed six different medications to treat various conditions, and the
state court judge ordered him to serve his sentence in a hospital, so the evidence is sufficient to
support a finding that Wojcik suffered from serious medical needs that required ongoing treatment
by means of the prescribed medication and hospitalization.

10

Case: l:14-cv-04854 Document #: 147 Filed: 08/30/19 Page 11 of 16 PagelD #:564

(“While in the custody and care of one or more individual defendant Sheriff Deputies, one or more
individual defendant Sheriff deputies failed to ensure plaintiffs mittimus reached the individual
Cook County defendants.”) (capitalization omitted). But to support this allegation, Wojcik offers
nothing more than the facts that Kaloudis processed him at the courthouse and Ali transported him
to CCJ. Wojcik has adduced no evidence that Kaloudis had any responsibility for transporting him,
or the mittimus, to the CCJ or Cermak; so far as the record reflects, Kaloudis included the judge’s
order with Wojcik’s property and the order went with him to the CCJ. See PSOF Ex. 2; see also
Defs.’ Resp. to PSOF ^ 3, ECF No. 143. Kaloudis’s involvement was over when Wojcik was taken
from the courthouse.
As for Deputy Sheriff Ali, the evidence does not establish that he knew anything at all
about Wojcik’s medical condition or the judge’s order. As with Kaloudis, no evidence has been
offered to support the conclusion that Ali had any responsibility to ensure that the mittimus was
delivered to Cermak or the individual CCJ defendants rather than to CCJ for processing.10 Through
Wojcik’s opposition to summary judgment, he adds an allegation that he broke his back while Ali
was transporting him to CCJ,11 but he does not contend that Ali (or any other defendant) knew that
he had injured his back during the bus ride. Accordingly, a reasonable jury could not conclude that
either Deputy Kaloudis or Deputy Ali was deliberately indifferent to Wojcik’s medical needs.

10 Further, Cermak is part of CCJ. Although Wojcik appears to dispute this, see Pl.’s Resp.
to DSOF K 6 (“The cited document says nothing about Cermark [sic] Hospital being on the ground
[sic] of CCJ.”), the Court can take judicial notice of that fact as it is not subject to reasonable
dispute. See Orgone Capital III, LLC v. Daubenspeck, 912 F.3d 1039, 1048 (7th Cir. 2019); see
https://www.inmateaid.com/visitation/cook-county-jail-ccdoc-cermak-hospital
also,
e.g.
(providing
visitation
information
for
CCJ
inmates
housed
at
Cermak);
https://www.jaildata.com/prison/cook-county-sheriff-jail-ccdoc-doc-cermak-hospital
(“Cook
County Sheriff Jail (CCDOC) - D.O.C. Cermak Hospital is a county jail facility”).
11 The Amended Complaint makes no such allegation.

11

Case: l:14-cv-04854 Document#: 147 Filed: 08/30/19 Page 12 of 16 PagelD #:565

Wojcik alleges that he “attempted to inform one or more individual Cook County [Jail]
defendants of his dire medical condition,” Am. Compl. 122, ECF No. 16 (capitalization omitted),
and that the individual Cook County defendants had “actual knowledge via plaintiffs mittimus”
of Wojcik’s objectively serious medical needs, id. at f34. He also alleges that the individual Cook
County defendants consciously and deliberately disregarded the risk of substantial harm to Wojcik
stemming from those medical needs. He offers no evidence, however, that any defendant had
actual knowledge of his medical needs as expressed in his mittimus, let alone that any defendant
was deliberately indifferent to those medical needs. To the extent that the Cook County defendants
observed or were otherwise made aware of Wojcik’s medical needs, the evidence supports the
conclusion that they made efforts to understand and respond to those needs, not that they
deliberately disregarded them. Just as with the deputy defendants, it does not follow from the mere
fact that the CCJ defendants interacted with Wojcik that they must be responsible for Wojcik’s
mittimus not being properly processed or that they were deliberately indifferent to his medical
needs as expressed therein.
Each of the CCJ defendants made efforts to verify the prescriptions Wojcik/Avado
reported, referred him for further evaluation, or both. Those referrals ultimately led to
Wojcik/Avado being referred to the medical infirmary for his housing assignment.
Wojcik/Avado’s medications were ultimately verified, and although those medications do not
appear to have been delivered to Wojcik/Avadci before the end of his brief term of incarceration,
there is no evidence to suggest that the delay was the result of deliberate indifference on the part
of any defendant identified in this case. The defendants’ conduct is alleged to have been deficient
only to the extent that they failed to take action that Wojcik has not provided a reasonable basis to
believe the defendants should have known at the time to take.

12

Case: l:14-cv-04854 Document#: 147 Filed: 08/30/19 Page 13 of 16 PagelD#:566

Kilgore first evaluated Wojcik/Avado and noted that he “appeared normal” but referred
him for further mental health evaluation anyway because of his self-report of having received
prescriptions for “psych meds” in the past. Kilgore is not alleged to have known of the mittimus
or the list of prescriptions that accompanied Wojcik to the CCJ. Wojcik/Avado was next evaluated
by Masi. Wojcik/Avado claims that he “[ajdmitted to taking medications including Xanax 2 mg
and Clonazepam 2 mg which was explained to Rebecca Masi that the documents were in a placed
in sealed plastic bag with [his] clothes on June 27, 2013.” PSOF

6 (grammatical errors

preserved). The evidence to which Wojcik cites for this assertion suggests that he told Masi that
he was taking Xanax and Clonazepam, see DSOF Ex. D, SAO WOJCIK 00011, ECF No. 129-5,
but not that he told Masi about the court order. Further, the most natural reading of this assertion
is that the documentation he claims he told Masi about related only to his Xanax and Clonazepam
medications; nothing in that assertion would have alerted Masi that the documentation to which
Wojcik/Avado was referring would show that his medical needs were more extensive than those
he was expressing verbally. Perhaps Masi’s best course of action would have been to immediately
investigate what was reflected in those documents anyway. But to survive summary judgment,
Wojcik must point to specific facts giving rise to a reasonable inference that a defendant acted
with a state of mind akin to criminal recklessness. See McGee, 721 F.3d at 480-81. Failing to take
a course of action that with the benefit of hindsight may appear to have been the best course of
action does not, without more, give rise to an inference that Masi failed to investigate the contents
of those documents with a state of mind akin to criminal recklessness. Masi was aware that
Wojcik/Avado had an upcoming follow-up appointment and still advised him to submit a Health
Services Request Form if he needed more immediate attention. See DSOF Ex. D, SAO WOJCIK
00013 (Masi “encouraged [Wojcik/Avado] to fill out a yellow Health Service Request form if

13

Case: l:14-cv-04854 Document#: 147 Filed: 08/30/19 Page 14 of 16 PagelD #:567

symptoms worsen before [his] follow up appointment.”). Wojcik/Avado filled out that form the
next day and was further evaluated.
Masi, moreover, was hardly indifferent to whether Wojcik/Avado required prescription
medications; she attempted to verify his medications but was unable to do so because he was using
his “Avado” alias. The same is true for defendant Skrivan, who also attempted to verify
Wojcik/Avado’s claims about his prescription. There is no evidence, for example, that any
defendant disregarded a suggestion that they should search prescription drug databases under the
name “Wojcik” instead of “Avado.” Skrivan’s regard for Wojcik/Avado’s medical needs is also
evident from his referral of Wojcik/Avado to the medical infirmary for further medical evaluation,
and marking of the referral as urgent, even though Skrivan is not alleged to have in any way been
aware of Wojcik/Avado’s mittimus.
The final defendant to evaluate Wojcik/Avado was Howell, who verified Wojcik/Avado’s
medications and requested those medications from the pharmacy. It appears that those medications
were not delivered before Wojcik/Avado was released two days later, but there is no basis in the
record to conclude that Howell or any other defendant could have (or should have) done more to
ensure that the medications were delivered sooner.
As for his allegations concerning his back injury, the defendants contend, and the medical
records support, that Wojcik/Avado “complained about lower back pain” to Howell, and that
Wojcik/Avado “was given Tylenol.” DSOF f 37. Wojcik, in response to this statement of fact,
“affirmatively states that he wasn’t given Tylenol.” Pl.’s Resp. to DSOF f 37. But Wojcik offers
no testimonial or other evidence in support of this denial, so it may not even clear the “scintilla”
standard, but even if it did, the dispute would not be material for at least two reasons. First, Wojcik
has not alleged or adduced evidence that Howell knew that he had fallen on the bus or on the stairs,

14

Case: l:14-cv-04854 Document #: 147 Filed: 08/30/19 Page 15 of 16 PagelD #:568

that his pain was severe,12 or that Howell was aware of the severity of his pain. And second, this
dispute has nothing to do with Wojcik’s claim. Wojcik’s amended complaint says nothing about
the failure to provide adequate care for his back injury and founds no claim on that basis.
What the record in this case establishes is that Judge Sullivan’s order that Wojcik serve his
time in the Cermak Hospital and that he be administered his prescription drugs was not carried
out. That is unfortunate. That failure does not, however, mean that any defendant named in this
suit violated Wojcik’s constitutional rights by recklessly disregarding Wojcik’s serious medical
conditions. Others—the CCJ intake officer, for example—may have been aware of Judge
Sullivan’s order and the need to ensure that his prescription medications were administered, but
the plaintiff has not identified them.13 And several of the defendants could, perhaps, have done
more to ferret out Wojcik’s need for medications, but no reasonable jury could, on this record,
conclude that any of the named defendants were recklessly indifferent to Wojcik’s medical needs
as expressed in his mittimus or otherwise. On this record, it is plain that the fundamental cause of
the problem in identifying Wojcik’s medications was not due to the indifference of any of the
named defendants but to the Wojcik’s own actions in using an alias that differed from the name in
which his prescriptions had been issued. And because the deliberate indifference claims against
the individual defendants fail and Wojcik has not asserted any other theory of relief against the
individual defendants, the respondeat superior and indemnification claims premised upon the
conduct of the individual defendants also fail.14
12 Notably, in this regard, Wojcik did not complain of back pain or injury when he went to
Rush hospital upon his release from custody.
13 The Court intends no finding that any other person would, in fact, be liable on Wojcik’s
claims.
14 The Court need not reach the question of whether the defendants’ actions were protected
by qualified immunity. Had Wojcik asserted facts giving rise to an inference that any defendant
deliberately disregarded a court’s order requiring that Wojcik receive prescription medication,
15

Case: l:14-cv-04854 Document#: 147 Filed: 08/30/19 Page 16 of 16 PagelD#:569

For the reasons stated above, the defendants’ motion for summary judgment, ECF No. 128,
is granted.15

John J. Tharp, Jr.
United States District Judge

Dated: August 30, 2019

however, it is unlikely that such a defendant could establish that he or she did not violate Wojcik’s
clearly established rights.
15 Wojcik’s motion to strike the defendants’ motion for summary judgment, ECF No. 139,
which is devoid of any explanation of the alleged deficiency in the defendants’ motion, is also
denied.
16

